No. 20-

In the Supreme Court of the United States
HOLOGIC, INC. AND CYTYC SURGICAL PRODUCTS, LLC, CROSS-PETITIONERS,
v.
MINERVA SURGICAL, INC., CROSS-RESPONDENT.
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
8,348 words, excluding the parts of the document that are exempted by Supreme
Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct. Executed on
November 5, 2020.

/s Matthew M. Wolf _
Matthew M. Wolf
Counsel of Record
ARNOLD & PORTER KAYE SCHOLER LLP
601 Massachusetts Ave., NW
Washington, DC 20001
(202) 942-5000
matthew.wolf@arnoldporter.com
November 5, 2020

